U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                   NATIONAL TECHNICAL

                  INFORMATION SERVICE


                                New Business Model


 Final Audit Report No. FSD-15100-3-0001/December 2002




                              PUBLIC
                              RELEASE



      Office of Audits, Financial Statements Audits Division

INTRODUCTION

The National Technical Information Service is the nation’s largest central source of
unclassified scientific, technical, engineering, and business-related information produced
by domestic and foreign sources. Its mission in disseminating this information is to
stimulate innovation and discovery and thus support economic growth and job creation.
The bureau maintains a database that includes a bibliographic listing of reports generated
since 1964. At present, more than 2 million titles covering 350 subject areas are
cataloged in the database.

Submission of materials to the bureau was voluntary until 1992, when Congress passed
the American Technology Preeminence Act (ATPA). This law mandated that executive
agencies transfer to NTIS all unclassified scientific, technical, and engineering
information that results from federally funded research and development.

NTIS is required by its enabling legislation to be self-sustaining, and the bureau must
therefore generate revenue to cover its operating costs. To do so, it leases its database to
vendors and charges for products and services it provides. In passing the Department of
Commerce’s 1993 appropriations bill, Congress moved to bolster NTIS’ efforts to
become self-sustaining by replacing the bureau’s annual appropriation with a one-time
appropriation of $8 million to establish a revolving fund for NTIS operations.

Improving Service Utilization

To improve service utilization, NTIS developed a new business model, which is designed
to enhance information dissemination, expand NTIS’ customer base, and increase
demand for its products. NTIS’ database, which includes abstracts of reports, offers a
wealth of information of potential interest to a diverse cross section of users. But NTIS
believes its traditional way of providing access has limited dissemination of its products.
The vendors who lease the database make it available for a fee to interested non
government users—typically businesses, industrial concerns, and research institutes,
rather than individuals (government agencies have free access). The vendors pay NTIS a
portion of the user fees, which the bureau applies to its costs for ongoing database
development and maintenance. NTIS also offers copies of reports for sale, and gives
customers five ordering options: via mail, phone, fax, email, or—for those dated 1990
and later—the NTIS web site. Reports are provided in paper, microfiche, or CD-ROM at
prices that are based on the document’s number of pages.

The Old Model vs. the New Model

NTIS believes its old model was appropriate for pre-Internet days, when the bureau had
no practical way to reach large numbers of potential customers, short of spending
massive amounts on marketing and printing. The old model restricted the appeal of the
bureau’s products and services to business, industry, and research institutions. NTIS
expects the new model to generate more interest in—and thus greater use of—its
products and services.



                                              2

The new model provides the same product options as the old, but establishes a virtual
library at the NTIS web site that offers abstracts and downloads of reports dated 1997 and
later. (See Chart 1 below.) Reports of 20 pages or fewer, which represented about 3
percent of NTIS’FY 2000 annual sales, can be downloaded free from the virtual library.
Reports of more than 20 pages, which accounted for approximately 17 percent of
FY 2000 annual sales, will cost $8.95 per download. When applicable, the NTIS web
site will link to other agencies’ sites where users can download free copies of reports. In
addition, the new model uses sophisticated tracking technology, known as persistent
digital identifier, to create a permanent repository for copies of all reports whose titles are
listed in the NTIS database, including those that an agency ultimately removes from its
own web site.

The bureau estimates the total cost of launching the redesigned web site will be
$500,000—25 percent of that amount was used to finance development of the virtual
library, which became operational in April 2002. Another $50,000 to $150,000 will
finance a broad-based marketing campaign that targets traditional and nontraditional
users. Annual costs for maintaining the library are expected to average roughly $150,000
beginning in FY 2003 and beyond.

Chart 1: NTIS’ New Business Model

                                        NEW BUSINESS MODEL

                                            Old Business Model

    NTIS Help Desk: Accepts mail, phone, fax, or email orders from the general public.

    NTIS Leases Database to Vendors in 4 Categories:
    a. Commercial entities that pay NTIS annual lease fees and 40% of its customer usage fees.
    b. Commercial entities that pay NTIS 60% of its customer usage fees. No annual lease fees paid.
    c. Government agencies that use the database for internal use only. No fees paid to NTIS.
    d. Universities that use the database for internal use only. Pay NTIS annual lease fees only.

    Database on NTIS Website: Information on NTIS' collection (citations and ordering information)
    from 1990 to present.

    Virtual Library on NTIS’ Website: Fully annotated post-1996 portion of the NTIS collection;
    provides downloads of reports available in electronic format; and links to actual reports offered for
    free at other agency's website.




                                                     3

OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of our audit were to assess the financial viability of NTIS’ new business
model and the soundness of its cost and revenue estimates. We examined the financial
plan that supported the new model, the processes involved in developing and
implementing it, and the assumptions used to determine projected income and related
expenses. We reviewed all pertinent documentation related to the new model and
interviewed key NTIS personnel regarding the main features of both the old model and
the new. We did not assess the reliability of computer-processed data because such data
was not relevant to our audit objectives. We did not assess NTIS’ compliance with laws
and regulations because such an assessment was not significant to the objectives of our
audit.

We conducted our fieldwork between April and June 2002 in accordance with generally
accepted government auditing standards and under authority of the Inspector General Act
of 1978, as amended, and Department Order 10-13, dated May 22, 1980, as amended.


FINDING AND RECOMMENDATIONS

NTIS Has Inadequate Documentation to Support the Assumptions
Used to Develop the New Business Model’s Estimates

OMB Circular A-123, Management Accounting and Control, requires agencies to
implement organizational policies and procedures to reasonably ensure that reliable and
timely information is obtained, maintained, reported, and used for decision making. In
addition, sound business practices require (1) the use of rigorous methodologies to chart
and model business processes and their associated cost and income assumptions, and (2)
the periodic review of cost/revenue estimates against actual performance to evaluate
whether the estimates were realistic and to develop a track record upon which to base
future projections.

Since NTIS implemented its new business model in April 2002, there were no actual
numbers against which we could evaluate its projections at the time of our review.
However, we found that the model itself was built on assumptions derived from intuitive
estimates rather than verifiable forecasting methods and processes. As a result,
management could not provide us with documentation to support its projected numbers of
free downloads, purchased downloads, and purchased copies of reports in hard copy or
other media, and therefore could provide no support for anticipated revenue from the new
model. Chart 2 depicts NTIS’ projections for the new business over the next three years.

In addition, its price for purchased downloads—$8.95— is only partially supportable. It
is based on the bureau’s incremental costs for processing each new order—$7.57 in
2000—plus a small amount that management expects to offset the need for future rate
increases. However, NTIS has not yet developed projections of future processing costs.




                                            4

Because the projections and other data used in NTIS’ new business model are not
verifiable, the value of the model as a tool for planning and supporting bureau operations
is questionable.

Chart 2: New Business Model Projections (NTIS Estimates)*

                                 Per                Year 1                   Year 2                    Year 3
                                Unit          Increase/(Decrease)      Increase/(Decrease)       Increase/(Decrease)
                               Revenue       Units       Amount       Units       Amount        Units       Amount
 Traditional Users
 Loss due to free
 downloads **                   $ 16.00     (1,250)   $    (20,000)   (1,250)   $    (20,000)   (1,250)   $  (20,000)
 Purchased downloads            $ 8.95      10,000    $      89,500   10,000    $      89,500   10,000    $    89,500
 Hard-copy sales loss **        $ 40.00     (5,000)   $   (200,000)   (5,000)   $   (200,000)   (5,000)   $ (200,000)

 New Users
 Free downloads                     n/a     20,000    $          --   40,000    $          --   60,000    $         --
 Purchased downloads            $ 8.95       5,000    $     44,750    10,000    $     89,500    15,000    $   134,250
 Hard-copy sales **             $ 40.00      2,000    $     80,000     3,000    $    120,000     4,000    $   200,000

 Total Estimated Revenue                              $     (5,750)             $     79,000              $   203,750

 Estimated Expenses                                   $    162,500              $     75,000              $    75,000

 Net Impact on                                        $   (168,250)             $      4,000              $   128,750
 NTIS’ Operations
* Source of all data is NTIS. 

** Per unit revenue is an average sales price.




CONCLUSION

The 3-year projections for the new business model noted in Chart 2 above show minimal
short-term impact on NTIS’ operations, revenues, and expenses. See Chart 3 for the
FY 2002 financial plan for NTIS operations. According to NTIS officials, the bureau
will closely monitor the model’s actual impact and remain open to changing its pricing
structure and other aspects, as needed. Although NTIS cannot document the model’s
viability, the initial years’ financial projections are so low that they will have little effect
on the bureau’s overall operations in the short term. It is not yet clear if the model will be
a long-term solution to the bureau’s financial needs. In the meantime, however, NTIS
should gather the data it needs to document the model’s value.




                                                            5

Chart 3: FY2002 Financial Plan*

                                                               Revenue           Cost              Net
Clearinghouse Products and Services
    • Announcement Product Group                           $       923,300   $    3,409,300   $   (2,486,000)
    • Full text Product Group **                                 5,460,200        6,167,800         (707,600)
    • Computer Product Group                                     5,971,400        4,748,500         1,222,900
    • Standing Order Product Group                               1,971,500        1,467,000           504,500
    • Paper Subscription Product Group                             731,400        1,187,600         (456,200)
    • Electronic Subscription Product Group                      3,310,000        2,478,800           831,200
    • Clearinghouse Services Product Group                      12,734,700       11,361,400         1,373,300
    • Miscellaneous                                              1,242,800        1,062,900           179,900

Total Clearinghouse Products and Services                       32,345,300       31,883,300          462,000

Web Hosting Services                                               531,100         484,600            46,500

Total NTIS Operations                                      $    32,876,400   $   32,367,900   $      508,500
* Source of all data is NTIS. 

** The Virtual Library is a subset of the Full Text Product Group. 




Recommendations

The Director of NTIS should:

     1. 	 Make it clear to interested parties, including the Department’s senior officials,
          that there are major uncertainties associated with the business model’s
          estimates/projections.

     2. 	 Periodically review the projections to determine whether they are realistic and
          achievable, and

     3. 	 Evaluate the impact of the new business model on NTIS’ operations on a monthly
          basis, and determine whether the new model is achieving the desired results or
          whether modifications are needed.

NTIS Comments

NTIS generally agreed with our recommendations and assured us that future discussions
with policymakers will note that there are uncertainties associated with the model. In
addition, NTIS has put procedures in place for monthly reviews of all projections to
determine whether they are realistic and feasible and to assess the overall impact of the
model on NTIS operations. NTIS’ complete response to our report is attached.

                                                      *****




                                                           6

Please provide us with your action plan addressing the recommendations within 60
calendar days, in accordance with Department Administrative Order 213-5. The plan
should be in the format specified in Exhibit 7 of the DAO. Should you have any
questions regarding the preparation of action plans, please contact me at (202) 482-4661,
or Michael Sears, Assistant Inspector General for Auditing, at (202) 482-1934.

We appreciate the cooperation and courtesies your staff extended to us during our review.


Attachment:   NTIS Response to OIG Draft Report


cc:    Bruce P. Mehlman, Assistant Secretary of Commerce for Technology Policy

       Benjamin H. Wu, Deputy Under Secretary for Technology




                                            7

